Pension Benefit Guaranty Corporation
     Office of Inspector General
              Audit Report




FY 2012 Audit of PBGC’s Compliance with the
Implementation of the Improper Payments Act




              March 14, 2013
                                  AUD-2013-5/PA-12-92
Background

On July 22, 2010, the President signed IPERA3 into law. IPERA amended the Improper
Payments Information Act.4 Under IPERA, the head of each agency shall periodically review
and identify all programs and activities it administers that may be susceptible to significant
improper payments based on guidance provided by the Director of OMB.5

For each program and activity identified, the agency is required to produce a statistically valid
estimate or an estimate that is otherwise approved by OMB, of the improper payments and
include such estimates in the accompanying materials to the annual financial statements of the
agency.6 The agency must identify and report programs and activities with significant improper
payments and the actions it took to reduce the improper payments.7 For significant improper
payments, the report must specify, among other things (1) a description of the causes of improper
payments, actions planned or taken to correct those causes, and the planned or actual completion
date of the actions taken to address those causes, and (2) program- and activity-specific targets
for reducing improper payments that have been approved by the Director of OMB.8 For FY
2012, PBGC did not have significant improper payments.

To their credit, PBGC made efforts to comply with IPIA. PBGC developed, with OMB’s
approval,9 an alternative sampling and measurement approach for its FY 2012 improper payment
testing methodology. The Corporation also contracted with a consulting firm to assist in its IPIA
assessment. PBGC senior staff was directly involved in assessing the payments streams at risk
for improper payments and in the determination of error definitions. Consistent with OMB
guidance, the two payment streams identified for review, Benefit Payments and Multiemployer
Financial Assistance, represent the largest volume of payments made by the Corporation,
exclusive of payments made to federal employees (not required by OMB).

Similar to the FY 2011 improper payment assessment, PBGC continues to have difficulties with
the adequacy of its historical documentation. On April 27, 2012, PBGC requested approval from
OMB for its FY 2012 Improper Payment Testing Methodology. In this letter, PBGC requested
to generally “carve out” the testing of underlying documentation for Benefit Payments and focus
on testing the improper dollar amount. The request for this approach was due in part to the
significant legacy documentation issues identified during the FY 2011 improper payment pilot
testing. PBGC received OMB’s approval in September 2012, and our audit was conducted based
on the approved methodology plan. As a result of this fiscal year’s improper payment
assessment, testing of the Benefit Payments stream focused on actual dollar errors and essentially
eliminated the review of legacy documentation. That is, with OMB’s concurrence, PBGC
performed an assessment that does not address documentation or other related issues, except in a
peripheral manner. In addition, PBGC management revised the improper payment definitions
for benefit payments and multiemployer financial assistance.
3
  Pub. L. No. 111-204, 124 Stat. 2224 (2010).
4
  Pub. L. No. 107-300, 116 Stat. 2350 (2002).
5
  Pub. L. No. 111-204 § 2(a)(1), 124 Stat. 2224 (2010).
6
  Pub. L. No. 111-204 § 2(b), 124 Stat. 2224, 2225 (2010).
7
  Pub. L. No 111-204 § 2(c), 124 Stat. 2224, 2225-2226 (2010).
8
  Pub. L. No. 111-204 § 2(c)(1) and (4), 124 Stat. 2224, 2225-2226 (2010).
9
  PBGC Memo to OMB, “FY 2012 Improper Payment Testing Methodology, April 27, 2012.”

                                                                                                 2
Audit Results

OMB guidance specifies that each agency’s IG should review agency improper payment
reporting in the agency’s annual performance and accountability report, or the annual financial
report and accompanying materials, to determine whether the agency complied with IPIA.
Appendix B to this report describes the OMB established factors for our IPIA assessment and
our assessment of PBGC IPIA reporting. We concluded that PBGC complied with requirements
as specified by OMB in the context of the OMB-approved approach.

General Comment

As a result of our audit, we identified a concern regarding the clarity of PBGC’s presentation of
the results of their testing of benefit payments in Appendix A of the 2012 PBGC Annual Report.
PBGC reported $24.8 million in improper payments which lacked documentation for benefit
payments; however, it did not explain that the underlying documentation was not fully tested.
Without such an explanation, users of the report may believe this amount represents the
estimated improper payments resulting from documentation issues for the entire benefit payment
stream. We note that the 2012 Appendix A does not discuss PBGC’s request to OMB for using
its specific approach and OMB’s subsequent approval to carve-out underlying documentation
testing, but rather states only: “PBGC updated the payment definitions and testing approaches to
better focus on key payment processing elements.” In contrast, in its FY 2011 Annual Report,
PBGC highlighted the significant lack of documentation as a legacy documentation issue, but did
not disclose the magnitude of the problem. However, the effect of the “carve-out” was to
eliminate the vast majority of the documentation issues, a fact that is not clear from PBGC’s
presentation that provides a dollar value for errors due to “lack of documentation.”

We believe that the disparity in the level of information disclosed between both fiscal years and
in particular the lack of details with respect to the testing methodology carve-out that occurred in
FY 2012 could mislead readers. PBGC can strengthen its reporting by defining error types in
greater detail and specifically identifying any changes in testing methodologies. Details such as
testing methodology, the approval to OMB, and/or the correlating factors for reporting improper
payments with lack of documentations would improve the Corporation’s IPIA reporting.




                                                                                                   3
Scope and Methodology

Our objective was to assess PBGC’s compliance with the requirements of the IPIA, as amended.
In addition, we evaluated the Agency’s accuracy and completeness of reporting. To accomplish
our objectives, we:

       Reviewed applicable Federal Laws and Office of Management and Budget (OMB)
       guidance.
       Reviewed PBGC’s Improper Payment Assessment documented in Appendix A of the
       Corporation’s FY 2012 Annual Report (AR) for completeness and compliance with OMB
       requirements and compared the FY 2012 report with the prior year’s report.
       Requested source data from PBGC to support the figures in the AR.
       Analyzed the source data to ensure accuracy and completeness of all figures.
       Interviewed staff from PBGC’s Chief Financial Office, Contracts and Controls Review
       Department (CCRD), Benefits Administration & Payment Department (BAPD),
       Multiemployer Program Division (MEPD), the consulting firm, and OMB.
       Assessed the reasonableness of the payment streams PBGC selected for review.
       Analyzed documents, calculations, and evidence used to determine the amount of
       improper payments resulting from PBGC operations for correctness.
       Assessed PBGC statistical projections for compliance with OMB guidance.
       Reviewed a sample of the transactions reviewed by the PBGC contractor.

We conducted this performance audit in accordance with Government generally accepted
government auditing standards (GAGAS). Those standards require that we plan and perform this
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions, based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. This audit was
conducted between December 2012 and March 2013 in Washington, DC.




                                                                                                 4
APPENDIX A – Agency Response




                               5
APPENDIX B


               OMB ESTABLISHED FACTORS FOR INSPECTOR GENERAL
                       TO REVIEW FOR IPIA COMPLIANCE
                                                          PBGC
 Item               Requirement/Criteria                  Status                      Comment
          Agency has published a PAR or AFR
          for the most recent fiscal year and                           Annual Performance Report
          posted that report and any                                    published November 14, 2012.
          accompanying materials required by                            Report available on PBGC
 1        OMB on the agency website.                      Complied      website.
          Agency has conducted a program
          specific risk assessment for each
          program or activity that conforms to
          Section 3321 of Title U.S.C (if                               Risk assessment of major
 2        required).                                      Complied      payment streams completed.
          Agency published improper payment
          estimates for all programs and                                Improper payments below the
          activities identified as susceptible to                       significant threshold when
          significant improper payments under             Not           calculated with consideration of
 3        its risk assessment (if required).              Required      the OMB-approved approach. 10
                                                                        Improper payments below the
          Agency published programmatic                                 significant threshold when
          corrective action plans in the PAR or           Not           calculated with consideration of
 4        AFR (if required).                              Required      the OMB-approved approach.
          Agency published, and has met, annual                         Improper payments below the
          reduction targets for each program                            significant threshold when
          assessed to be at risk and measured for         Not           calculated with consideration of
 5        improper payments.                              Required      the OMB-approved approach.
          Agency reported a gross improper
          payment rate of less than 10 percent                           Improper Payment rates below
          for each program and activity for                             10% for all payment streams
          which an improper payment estimate                            when calculated with
          was obtained and published in the                             consideration of the OMB-
 6        PAR11 or AFR12.                                 Complied      approved approach.
                                                                        Improper payments below the
          Agency reported information on its                            significant threshold when
          efforts to recapture improper                   Not           calculated with consideration of
 7        payments.                                       required      the OMB-approved approach.

10
   Significant improper payment defined as gross annual improper payments in the program exceeding both 2.5
percent of program outlays and $10 million or $100 million regardless of outlays. (OMB-Circular A-123 Appendix
C Part I A-7 a.
11
   Performance and Accountability Report.
12
   Agency Financial Report.

                                                                                                                 6
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
